                     CLOSEOUT FOR M94100033
     This case came to OIG on Octobe
0,
 a program director in the
Program in the Division of
informed us that a reviewer had alleged that a proposal he reviewed
contained verbatim sentences from published papers without giving
                                        proposal, submitted by-
                                    - e


#  ...   7
                       referred OIG to two papers that were the
original soum        sentences that appeared in the subject's
proposal. OIG discovered a third such paper as well.
     When we wrote to the subject, he explained that he did not
realize that his action had been inappropriate and that in his
proposal he had appropriately referenced all ideas not original to
himself. OIG concluded that a scientist reading the sentences in
question and believing that the subject himself had written them
would not have credited the subject with ideas that were not
original to him.
     OIG decided that the nature and amount of the material that
had been included in the proposal without appropriate attribution
were such that the subject's action could not be considered a
serious deviation from accepted practices and, hence, misconduct in
science.   We wrote to the subject explaining the appropriate
procedures for citing and quoting material drawn from other authors
and noting that he should express familiar ideas in language that
is original to himself.
     This inquiry is closed and no further action will be taken on
this case.




                           page 1 of 1
